Inspection Report I-97-05
DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTIONS REPORT
THE JUSTICE PRISONER AND ALIEN
TRANSPORTATION SYSTEM
March 1997
Report Number I-97-05
TABLE OF CONTENTS
TRANSMITTAL MEMORANDUM
MANAGING THE TRANSPORTATION OF
PRISONERS AND ALIENS
USMS and INS Air Operation
Previous Studies Cited Lack of
Basic Operational Data To Support Prisoner Transportation
Management Decisions
JPATS Operational as of
October 1, 1995
JPATS MOVING INCREASING NUMBERS OF
PRISONERS AND ALIENS
JPATS MANAGEMENT MUST MAKE
IMPORTANT RESOURCE DECISIONS WITH LIMITED INFORMATION
Transportation Routes
Potential Hub Sites and
Aircraft Selection
AUTOMATED PRISONER SCHEDULING:
AN IMPORTANT STEP TO IMPROVE JPATS DECISION MAKING
APSS DEVELOPMENT CONCERNS
Development of the APSS
Needs to be Better Coordinated
Computer Security
Requirements Not Adequately Defined
JPATS Management Needs
Complete Cost Information to Support Decision Making
NEXT STEPS: WORK PROCESS REDESIGN AND
INTEGRATION OF APSS WITH DEPARTMENT PRISONER AND ALIEN TRACKING
SYSTEMS
Recommendations
APPENDIX I - INSPECTION METHODOLOGY - NOT INCLUDED IN THIS
HYPERTEXT VERSION.
APPENDIX II - INVENTORY OF JPATS AIRCRAFT - NOT INCLUDED IN
THIS HYPERTEXT VERSION.
APPENDIX III - UNITED STATES MARSHALS SERVICE RESPONSE TO
DRAFT REPORT - NOT INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL'S ANALYSIS OF
MANAGEMENT'S RESPONSE - NOT INCLUDED IN THIS HYPERTEXT VERSION.
MEMORANDUM FOR EDUARDO GONZALEZ
DIRECTOR
UNITED STATES MARSHALS SERVICE
FROM: MICHAEL R. BROMWICH
INSPECTOR GENERAL
SUBJECT: Inspection of the Justice Prisoner and Alien
Transportation System, Report Number I-97-05
Attached is our final report on the subject inspection.
In your first status report to the Attorney General on the
Justice Prisoner and Alien Transportation System (JPATS), dated
October 6, 1996, you wrote that:
the primary mission of JPATS is to provide efficient air
transportation for criminal and noncriminal aliens, Marshals
Service (USMS) detainees, and Bureau of Prisons (BOP)
sentenced prisoners.
The Inspections Division has completed a review of JPATS
implementation, and based upon this review, we can report that
JPATS is moving increasing numbers of prisoners and aliens.
However, we have been unable to draw conclusions about the
efficiency of JPATS operations because of the lack of usable
operational and cost data related to the movement of prisoners
and aliens. This lack of adequate data has been a long-standing
problem in the USMS.
USMS efforts are currently underway to implement an Automated
Prisoner Scheduling System (APSS), designed to capture
operational information needed to make future JPATS management
decisions (e.g., about aircraft, routes, and hubs). However, as
designed, the APSS will not capture all the costs incurred by the
Department components involved in transporting prisoners and
aliens. Although capturing complete cost information presents a
challenge, it must be done if JPATS management is to have the
information it needs to make cost-effective use of JPATS
resources. We therefore recommend that JPATS management and the
Chief Information Officer (CIO) work together to develop a
systematic approach for collecting
Eduardo Gonzalez
Page 2
and analyzing USMS, Immigration and Naturalization Service
(INS), BOP, and Federal Bureau of Investigation (FBI) prisoner
and alien transportation cost information needed to make
cost-effective decisions about the use of JPATS resources.
Complicating efforts to coordinate data collection and
analysis has been poor communications between the CIO (developer
of APSS) and JPATS users, especially the primary user, the USMS
Prisoner Services Division (PSD). When the CIO assumed
responsibility for APSS development in August 1995, his first
action was to select a new contractor. He did so because he had
serious reservations about the performance and design phase
proposal submitted by the requirements phase contractor, and
because he believed the system could be developed at a lower cost
than the requirements phase contractor was projecting. The CIO
subsequently made changes in approach and time frames for
implementing the APSS that were not effectively communicated to
PSD managers at headquarters and the Kansas City scheduling
center.
We reviewed the actions taken by the CIO and, while it is too
early to fully assess the merits of the CIO's decisions, the poor
communication between the CIO and PSD puts the APSS project at
risk. PSD managers are responsible for the movement of prisoners
and aliens, and ultimately for APSS. They must clearly understand
and be kept apprised of changes in approach and implementation
time frames as these may affect future operational decisions and
resource requirements. Accordingly, three of the five
recommendations in our report are intended to require more
effective communication and coordination.
We also note that computer security requirements have not been
defined for the APSS system. We found that well into the design
phase the USMS has not yet performed a systematic review of the
security requirements for the APSS, and user (USMS, INS and BOP)
security requirements have not been established. Department of
Justice policy requires that security specifications be defined
prior to initiating formal development of application systems,
and that appropriate technical, administrative, physical, and
personnel security requirements be included in procurement
specifications for the acquisition or operation of automated
information systems.
Given that security requirements were not defined, we
recommend that the CIO promptly initiate a formal review of APSS
computer security requirements. Specifically, steps should be
taken to identify APSS security risks and appropriate security
measures to address those risks. Specific security safeguards and
controls should, at a minimum, be designed and implemented to
prevent and detect unauthorized system access and access to data,
and misuse of the system by authorized users. In addition,
Eduardo Gonzalez
Page 3
contingency planning is needed to ensure that appropriate
arrangements are made for backup systems and data recovery.
In summary, we found that JPATS is moving increasing numbers
of prisoners and aliens, but that more needs to be done to
provide JPATS management with the data it needs to make the most
efficient use of JPATS resources. We hope the comments,
suggestions and recommendations contained in the attached report
will be useful in your efforts to improve and enhance JPATS
operations.
We sent copies of the draft report to your office February 3,
1997, and requested written comments on the findings and
recommendations. Your March 12, 1997 response addressed each of
the five recommendations. We have attached your response as
Appendix III.
On the basis of your written comments, we consider all
recommendations resolved but have kept two of them open pending
further action. Appendix IV explains why the recommendations were
not closed and what action is needed.
Please respond to the open recommendations by June 17, 1997.
Your response should provide the additional information
requested. If actions have not been completed, please provide
proposed completion dates. Guidance on report follow-up and
resolution can be found in Department of Justice Order 2900.10.
We congratulate you and the JPATS staff for your recent
achievement in receiving the Vice President's Hammer Award, and
appreciate the cooperation we received from managers and staff
throughout the USMS as we carried out our review. Please let me
know if we can provide you with any additional information. I can
be reached on (202) 514-3435.
Attachment
cc: Lucia C. Clark
Liaison
United States Marshals Service
Vickie L. Sloan
Director
Audit Liaison Office
MANAGING THE
TRANSPORTATION OF PRISONERS AND ALIENS
Transporting prisoners and aliens is a rapidly growing
activity in the Department of Justice (Department). The United
States Marshals Service (USMS), Prisoner Services Division (PSD),
is responsible for managing the Justice Prisoner and Alien
Transportation System (JPATS) and is being challenged to schedule
and move the growing numbers of prisoners and aliens. The
existing system for scheduling prisoner and alien movements is
antiquated. The USMS is attempting to put in place the
infrastructure needed to automate the scheduling system and
provide for the much needed analysis of transportation workloads
and resource requirements. In the interim, Department managers
are forced to make multi-million dollar decisions regarding
aircraft and detention facilities without the benefit of reliable
historical information and analysis of air and ground operations.
As a result, current spending and decision making may not best
support future JPATS requirements.
JPATS conducted 189,071 prisoner and alien movements for
Fiscal Year (FY) 1996, and this number is expected to grow to
approximately 221,000 in FY 1998. A movement is defined as each
scheduled segment of a prisoner trip. Complete end-to-end trips
may include more than one segment. Using its growing fleet of
aircraft, and with buses owned and operated by the Bureau of
Prisons (BOP) and the Immigration and Naturalization Service
(INS), JPATS is moving increasing numbers of pretrial and
sentenced prisoners and illegal aliens. JPATS also assists state
and local law enforcement agencies by transporting non-Federal
prisoners. This is consistent with the President's commitment to
provide Federal assistance to local law enforcement agencies
whenever possible. In FY 1996, JPATS transported 5,286 state and
local prisoners.
USMS and INS Air
Operations
Since its inception, the USMS has been responsible for
detaining and delivering pretrial prisoners to courts and
detention facilities. Added to those responsibilities is the
movement of post-conviction (sentenced) prisoners who are in the
custody of the BOP. As the pretrial and sentenced prisoner
populations increased, the need to have a more centralized
scheduling process became necessary. In 1979, the USMS created
the National Prisoner Transportation System (NPTS). The NPTS
ended the practice of the 94 districts independently making long
distance travel arrangements for prisoners. Located in Kansas
City, Missouri, the NPTS scheduled and coordinated air and ground
transportation for prisoners nationwide.
Rather than relying solely on commercial flights to move
prisoners over long distances, the USMS established its own air
transport capability in 1985 with the purchase of a Boeing 727
(B-727) aircraft, capable of moving about 100 prisoners at a
time. The hub of the newly created Air Operations Division was
located at the airport in Oklahoma City, Oklahoma.
The INS transportation system had a parallel evolution.
Initial transportation methods to move aliens primarily involved
the use of vans and buses that were independently operated in
each of INS' regions. Through the years, increasing numbers of
aliens required detention and removal over longer distances,
giving rise to the need for air transportation. INS air
operations began in 1954. The Air Transport Branch (ATB) mission
has through the years focused primarily on the removal of
criminal aliens. It also arranged for alien transfers,
deportation and removal flights, and relocating aliens to
lower-cost detention facilities until their removal. ATB air
resources were limited to a few small aircraft and one medium
sized airplane capable of moving about 50 aliens at a time. In
1987, the INS moved ATB operations to Pineville, Louisiana. The
ATB is now part of JPATS operations as a result of the merger in
October 1995.
Through the years the USMS and INS obtained additional
aircraft and changed the mix of their aircraft. The two
organizations did not routinely coordinate prisoner and alien
movements or share transportation resources to effect these
moves. The result was under utilization of aircraft capacity,
especially by INS on return trips from the southwest border.
Alien transportation movements, by the very nature of the
deportation process, tend to be one-way, while incarcerated
inmate and pretrial detainee transportation movements tend to be
round-trip in nature. Therefore, the Department maintained two
separate air fleets to transport prisoners and aliens. This
duplicative air transport capability strongly suggested cost and
administrative inefficiencies, especially because one of the
fleets was flying empty half the time.
Previous Studies
Cited Lack of Basic Operational Data To Support Prisoner
Transportation Management Decisions
As early as 1989, the Audit Division, Office of the Inspector
General, highlighted the fact that the USMS did not have an
adequate system to record and report NPTS program costs. The
October 1989 audit report stated that the USMS needed to improve
the management of the NPTS for directing, controlling, recording,
and reviewing its operation. Specifically, the NPTS only reported
selected costs and omitted those incurred by the service
providers. Because costs were understated, the NPTS presented an
inaccurate picture of prisoner movement costs. In addition, the
failure to present total costs made it difficult to identify
areas where economy and efficiency could be achieved.
The John A. Volpe National Transportation Systems Center,
Department of Transportation, conducted a study of the NPTS at
the request of the USMS. In its March 1992 report, "National
Prisoner Transportation System: Preliminary Assessment," the
Volpe Center concluded that the paper-based, manual USMS prisoner
scheduling system used by the NPTS operated effectively and
reliably, i.e., scheduling coordinators were able to keep up with
the scheduling and routing of aircraft and passengers. However,
the report also noted that because the prisoner scheduling system
was not automated, management did not have access to the
operational and cost information needed to support decision
making about the use of JPATS resources. The report stated that
the most basic information, such as patterns of movements and
unit costs of movement, was not readily accessible or available.
The study also pointed out that it was not possible to determine
whether the NPTS was running efficiently, and that the needs for
additional or different types of aircraft, staffing levels,
facilities, and vehicles could not be adequately justified.
The Volpe Center conducted another study in 1993 on the
possible merger of USMS and INS transportation services. The
March 1993 report, "Feasibility of Consolidating INS and
USMS Transportation Services," stated that: "Neither
the INS nor the USMS collect data or conduct analyses that would
permit the evaluation of the cost-effectiveness of their
services." Without information on the patterns of origins
and destinations of their passengers, the report stated that it
was ". . . impossible to judge performance or determine
capital equipment requirements." To illustrate this point,
the Volpe report provided examples of questions that could not be
addressed without data analysis, including:
· Is it more cost-effective to use buses or aircraft?
· Is it more efficient to operate point-to-point or
hub-and-spoke, and to what extent this network should vary
depending on weekly demand patterns?
· Are large or small aircraft more cost-effective, what
mix the fleet should consist of, and what climb/speed/other
characteristics the aircraft should possess?
The 1993 Volpe report concluded that "substantial cost
savings in prisoner transportation are almost certainly possible,
but . . . , analyzed evaluation of the cost-effectiveness of INS
and USMS prisoner transportation is impossible at present because
usable data are not collected or tabulated." The report went
on to note that whether or not the INS and USMS air assets were
merged, the potential savings "cannot be achieved without
improved management and planning functions."
The Justice Management Division (JMD) report, "A
Management Review of Air Fleet Operations within the Department
of Justice," issued in May 1994, recommended that the
Attorney General consolidate INS and USMS air operations. JMD
recognized and confirmed the weaknesses pointed out in the
previous Volpe reports, but stated that the merger would
nonetheless generate savings due to economies of scale, reduce
costs for commercial flights, and avoid duplicative investments
in aircraft upgrades. The Deputy Attorney General decided in
August 1994 to consolidate the air transport operations of the
USMS and INS.
JPATS Operational as
of October 1, 1995
The merger of USMS and INS air operations to form JPATS began
in August 1994, and became operational as of October 1, 1995. The
objective of the merger was to take advantage of centralized
management, scheduling, maintenance, and associated economies of
scale for both the USMS and INS. Combining the two operations was
expected to result in increased passenger loads and lower per
passenger costs. Responsibility for management of JPATS was
delegated to the USMS. During the transition period of the
merger, the NPTS assisted in the aircraft movements of aliens.
The JPATS implementation strategy stated that for the
long-distance moves the INS would select cities along existing
USMS air routes where aliens could be picked up and discharged.
INS would use existing ground transportation resources to
transport criminal aliens to these cities to be placed on the
larger JPATS B-727s for transport. If required, criminal aliens
as well as USMS and BOP prisoners could be temporarily housed at
the 1,800-bed BOP Federal Transfer Center located at the Oklahoma
City Airport to await another flight to their final destination.
The Federal Transfer Center is integral to the success of
JPATS because it provides a hold-over facility for prisoners and
criminal aliens at the same location where the larger JPATS
aircraft are based. The two B-727s currently in the JPATS
inventory each operate about 4-5 days each week and make trips to
the northeast, northwest, southwest, and southeast areas of the
country. These B-727s are used to travel the longer routes and
return to the Oklahoma City Airport each evening. Also based at
the USMS facility at the Oklahoma City Airport are four
Sabreliners that carry only six to seven prisoners at a time.
Because of their limited passenger capacity, the Sabreliners are
primarily used to move prisoners in time-critical situations or
emergencies.
JPATS also keeps some of its aircraft (one DC-9 and two
Convair-580s), some of which were obtained from the merger with
INS, at its satellite aircraft facilities located in El Paso,
Texas, and Alexandria, Louisiana. These aircraft are used
primarily to shuttle criminal aliens from the Federal Transfer
Center to the BOP criminal alien facilities at Oakdale,
Louisiana, and Eloy, Arizona, or to assist in the transportation
of noncriminal aliens.
Although JPATS owns and operates aircraft that it can route
and use as needed, it does not have direct control over all the
transportation assets it uses to transport prisoners and aliens.
Specifically JPATS:
· must schedule prisoner movements on buses owned by BOP
and INS that operate along established BOP and INS routes;
and
· must rely on assistance from USMS and INS districts
when district owned and operated vans and buses are needed to
assist in the transport of prisoners and aliens.
The Federal Bureau of Investigation (FBI) also furnishes a
35-passenger aircraft and pilots on a reimbursable basis. This
FBI assistance helps JPATS transport prisoners and criminal
aliens in the under-serviced Mid-Atlantic/Northeast corridor.
JPATS MOVING INCREASING
NUMBERS OF PRISONERS AND ALIENS
The number of prisoners and aliens needing to be moved
continues to grow each year. The Federal inmate population grew
from an average of 55,407 in FY 1991 to 92,157 in FY 1996. The
number of BOP facilities has grown from 65 as of September 30,
1990, to 86 as of May 31, 1996. Likewise, the illegal alien
population continues to rise with substantial increases in the
numbers of criminal aliens in Federal custody. Non-citizens in
Federal prisons increased from 4,088 in 1984 to 18,929 in1994, an
increase of 363 percent in 10 years, and INS is devoting more and
more resources to its efforts to apprehend individuals in the
United States illegally.
In its first year, JPATS moved more prisoners and aliens than
had been moved in the previous four years. As the following chart
shows, the total number of JPATS prisoner and alien movements for
FY 1996 was 189,071. This FY 1996 total represents at least
24,000 more movements than was accomplished in any of the
previous four years. Almost all of this increase was due to the
large number of illegal aliens moved. In FY 1996, JPATS moved
three times as many aliens as INS and USMS together moved in FY
1995. JPATS management expects the growth in prisoner and alien
movements to continue increasing at least through FY 1998.
Prisoner and Alien Movements
FY 1992
FY 1993
FY 1994
FY 1995
FY 1996
USMS Moves
157,089
160,046
152,240
151,387
INS Air Moves
3,554
5,017
6,380
10,334*
JPATS Moves
USMS
INS
157,843
31,228
TOTAL
160,643
165,063
158,620
161,721
189,071
* April - September 1995 served as a transition period for
JPATS. USMS and INS began merging their air transportation
services and assets during this time. Many of these movements
were carried out jointly by the USMS and INS.
Source: Figures supplied by JPATS and INS.
JPATS MANAGEMENT MUST
MAKE IMPORTANT RESOURCE DECISIONS WITH LIMITED INFORMATION
Lacking an automated system to capture and analyze operational
and cost data, JPATS management must make important resource
decisions based upon limited information. Prisoner movement data
currently exists only on tens of thousands of individual movement
request forms. Under current conditions, it would be an onerous
task to assess whether JPATS is making efficient use of its
resources. As JPATS grows and evolves, management will need
operational and cost data to support decisions such as:
· identifying the most efficient and effective
transportation routes and modes of transportation;
· identifying the best geographic location(s) for future
hub sites; and
· selecting the most suitable type of aircraft in terms
of cost, age, speed, passenger and fuel capacity, and
maintenance requirements.
Transportation Routes
JPATS needs to demonstrate that transportation routes are
optimized to ensure that air and ground resources are used in the
most efficient manner, i.e., not just scheduling passengers on
prearranged modes of transportation and routes. In its March 1992
report, Volpe presented a sample of prisoner movements that
represented what appeared to be inefficient routing. One movement
cited in the report was from the Federal Correctional Institution
at Milan, Michigan, to the Metropolitan Correctional Center in
New York City (about 600 miles). A prisoner was picked up by van
at Milan and transported to Detroit for air transport. After
flying the prisoner to the Federal Correctional Institution at El
Reno, Oklahoma (used prior to the opening of the Federal Transfer
Center), the prisoner was confined there for 6 nights, and then
was put on another flight to Atlanta. The prisoner stayed
overnight in the Atlanta Penitentiary, and the next day was
airlifted to the Federal Correctional Institution at Otisville,
New York. A USMS van picked him up in Otisville, completing the
final segment of the trip to the Metropolitan Correctional
Center. The complete trip covered about 2,650 miles over 8 days.
On the surface, it seems that an alternate form of
transportation, such as bus or van, could have been a more
economical way to move this prisoner. However, the lack of
complete operational and cost data makes it difficult to
establish whether this was the best way of moving the prisoner
between these two points. Complicating the analysis is the fact
that in most cases, the time it takes to move prisoners is not
considered an important issue, except for those in an expedited
or priority status, such as prisoners mandated to appear in
court. The following map illustrates the circuitous route taken
for this movement.
Source: 1992 Volpe Report.
In March 1996, a JPATS report, "Analysis of the JPATS Air
Program," included what appeared to be examples of
inefficient use of air resources. For example, a B-727 flight on
October 18, 1995, was to transport 47 prisoners from Kansas City
to the Federal Transfer Center (about 325 miles). Although a
direct flight would have taken about 1 hour, the aircraft made
numerous stops along its scheduled route to the northeast
corridor and the 47 prisoners spent 6 1/2 hours aboard the
aircraft before arriving at the Federal Transfer Center. The
following map reflects the much longer route taken by these
prisoners.
Source: March 1996, Analysis of the JPATS Air Program.
A second example was a flight on November 15, 1995, on which
36 prisoners picked up at the Federal Transfer Center were
destined for the Federal Correctional Institution at Oakdale
(about 450 miles). Instead of a 1-hour flight, they spent 6 hours
and 20 minutes on the aircraft making stops along its scheduled
route to the northeast corridor before arriving in Oakdale. This
circuitous trip is shown in the following map.
Source: March 1996, Analysis of the JPATS Air Program.
The lack of operational data for analysis means that JPATS
will continue to route prisoners and aliens as previously
described and not know whether those movements have been
completed in the most efficient and economical manner. While
speed, security, and safety are prime reasons for transporting
prisoners and aliens by aircraft, JPATS still needs to ensure
that they are transported in the most cost-effective manner.
Collecting sufficient data, and then analyzing it, is a necessary
first step in meeting this challenge. Merely analyzing one
prisoner and alien movement for cost-effectiveness will not
provide a sound basis for establishing a complete routing system
for aircraft, buses, and vans.
Potential Hub Sites
and Aircraft Selection
Future JPATS plans include a second, and possibly a third hub
(in addition to the USMS Air Operations Center in Oklahoma City)
for aircraft operations. According to the Chief of JPATS
scheduling operations, use by JPATS of a portion of an existing
300-bed BOP facility in Atlanta is being negotiated. The facility
would serve as a holding facility comparable to the Federal
Transfer Center. In addition, Seattle, Washington, is being
considered as a western hub for JPATS because of a 500-bed BOP
facility nearing completion.
At present, JPATS management lacks the necessary data to
identify the most cost-effective or logistically-sound locations
for new hubs. The initial benefit of using BOP facilities in
Atlanta or Seattle could be offset by other factors not fully
examined or known, e.g., the majority of prisoner and alien
movements may originate/end in a different city. An in-depth
analysis of air routes and patterns of prisoner movements needs
to be conducted to fully justify new hub selections.
Additional hubs could also impact the usage of the Federal
Transfer Center. This 1,800-bed facility was primarily
established because of JPATS centralized air operations in
Oklahoma City. With more hubs and decentralized air operations,
the Federal Transfer Center may not be fully utilized. In
addition, this facility was built as a transfer facility and not
as a long-term detention facility as are other BOP institutions.
If additional hubs are selected and become operational,
typical flight distances could be significantly reduced. The
current inventory of aircraft would then have to be re-evaluated,
and this could bring into question the need for the
transcontinental capability of the B-727s currently in use. In
this scenario, use of intermediate size aircraft instead of
B-727s for JPATS flights might be more advantageous.
Despite this possibility, the USMS said they recently had to
purchase a third B-727 through the Working Capital Fund to keep
up with the growing workload. However, if two additional hubs
become operational in the near future, the need for this recently
purchased third B-727 and its capabilities could be diminished.
AUTOMATED PRISONER
SCHEDULING: AN IMPORTANT STEP TO IMPROVE JPATS DECISION MAKING
The scheduling center in Kansas City coordinates and schedules
all prisoner movements through a labor-intensive, manual process.
Currently, there are 18 coordinators directly responsible for
scheduling all air and ground movements. Ground movements are
processed by coordinators assigned to six geographic areas,
whereas air movements are processed by coordinators assigned to
either the smaller (e.g., Sabreliner) or larger (e.g., B-727)
aircraft. Consequently, a long-distance move across the entire
country often involves multiple coordinators processing the
prisoner's ground and air movements.
Each day the scheduling center receives about 330 requests for
prisoner transportation. The INS, the BOP, and the USMS district
offices are the originators of these requests, and Kansas City
receives these requests through a variety of methods including
facsimile, teletype, telephone, or e-mail. USMS district offices
submit requests using a USMS Form 106. The BOP submits these
requests in a format similar to a Form 106 that is readily usable
by the coordinators. The INS requests, however, have to be
transcribed into the Form 106 format; a time-consuming process if
multiple moves are involved. All requests for prisoner and alien
movements are then processed and routed physically through the
scheduling process (ground and air coordinators) until the
prisoner or alien reaches the final destination.
Capturing and analyzing data cannot be accomplished
effectively because of the manner in which the original
information is received, processed, and stored in the scheduling
center. First, the process for scheduling and recording data by
the coordinators in Kansas City is not automated. It is an
entirely manual process in which the request for movement and
associated data is initially received from the originating source
in a variety of ways (facsimile, e-mail, telephone, or teletype).
The request is then either used in its original format (a hard
copy Form 106) or transcribed into a usable Form 106 format. The
Form 106 is physically handled by each coordinator involved with
the trip. The Form 106, with movement data recorded on it in a
variety of ways by the various coordinators, is filed and
retained for two years. Tens of thousands of these Form 106's are
filed at the scheduling center in Kansas City. Due to past and
current staffing levels at the scheduling center and the volume
of work involved in this labor-intensive scheduling process,
analysis of the data has not been part of the coordinators' daily
operational procedures. Therefore, comprehensive analysis of
operational trends and patterns has not been accomplished.
Much of the data entered on the Forms 106 by the coordinators
is not standard because of special circumstances involved with
specific movements. Scheduling prisoner movements requires
flexibility and innovation on the part of the coordinators.
Coordinators are continually confronted with movement priorities
and special situations. Prisoners in an expedited or priority
status must be accorded special consideration. Non-routine
arrangements must also be made in many medical and security
situations. Coordinator verification of certain special requests
and seeking corrections concerning clerical errors or absence of
necessary data can also disrupt the process.
Evidence of the special circumstances encountered by the
coordinators may not always be recorded on the Form 106 because
there are no requirements as to what coordinators are to record
on it. This practice allows each coordinator to have a unique
method of deciding and annotating what they see as necessary,
required, or helpful data on the Form 106. This current situation
does not, in our opinion, provide for the gathering and analyzing
of reliable and usable data on which to assess the efficiency or
effectiveness of this operation.
The USMS has tried unsuccessfully since 1983 to automate its
prisoner transportation request system in Kansas City. According
to JPATS managers, some of the reasons for the unsuccessful
attempts were insufficient funds, a change in management support
for the project, and a system that did not meet the objectives of
the users. The 1992 Volpe study pointed out that information
needed for analysis was not consistently available for each
movement request (i.e., origin-destination information, actual
routes and schedules, sources of movements, and preferred
schedules). The study stressed that collecting such data daily
and reviewing it frequently would greatly enhance management's
ability to forecast trends and make appropriate adjustments.
The Automated Prisoner Scheduling System (APSS) is currently
being developed by the USMS to automate many of the manual,
time-consuming scheduling processes in Kansas City and to capture
the operational data needed to support analysis of JPATS
operations. The APSS is an important step in streamlining JPATS
operations and allowing managers to make cost-effective use of
JPATS resources.
APSS DEVELOPMENT
CONCERNS
Because the APSS represents an important step toward improved
JPATS management decision making, we reviewed the ongoing APSS
project to assess its progress to date. The project is being
developed in three phases: requirements, design, and
implementation. It is currently entering the implementation
phase. Based upon our discussions with USMS and other Department
officials, and our review of APSS progress to date, we have
several concerns about current APSS systems development
activities.
Development of the APSS
Needs to be Better Coordinated
In August 1995, the USMS appointed an individual to a newly
created Chief Information Officer (CIO) position. The CIO was
responsible for the development of all information systems within
the USMS. Responsibility for APSS development was subsequently
moved by the USMS Director from the Assistant Director, PSD, to
the CIO. This change in responsibility occurred during the
requirements phase of APSS. One of the first actions by the CIO
was to select a different contractor for the design phase than
JPATS program managers had wanted. The CIO had serious
reservations about the performance and proposal of the
requirements phase contractor. The CIO also wanted more
competition among contractors during the life cycle of the
project. Although the CIO's decision to select a new contractor
was within his authority, it created apprehension among the users
responsible for the JPATS program (PSD managers and staff) about
whether the complete system, as defined by the previous
contractor, would be operational within established time frames.
The CIO subsequently made changes in the approach and time
frames for implementing the APSS that were not effectively
communicated to all levels of PSD management. Specifically, the
CIO stated that given the history of failed attempts to implement
an automated prisoner scheduling system, APSS development would
be carried out incrementally, i.e., USMS requirements for an
automated scheduling system would be addressed first and the
needs of other JPATS users would be addressed later. While the
CIO's incremental approach delayed the completion date of the
project beyond that projected by the original contractor, the CIO
wanted to ensure that each phase produced a complete and usable
product before moving to the next phase. In our opinion, there is
no clear evidence as to whether the original contractor's target
date for completion was realistic. The lack of communication to
the primary users about these changes led to differences in their
expectations as to when the complete system would be operational
and what would be the capability of the system.
Dealing with the complexity of the system and the many
Department users means that future development and implementation
of an APSS will require extensive coordination, not only within
the USMS, but also with INS and BOP. INS and BOP users of JPATS
have not been brought fully into the development process. We
discussed this lack of participation by INS and BOP with the CIO.
He explained that coordination with INS and BOP had not been a
priority early on in the process. Preliminary meetings have since
taken place, but INS and BOP requirements have not yet been fully
defined.
Success of the system depends on continual involvement by all
those responsible for transporting prisoners and aliens. We are
therefore recommending that the Assistant Director, PSD, promptly
convene a senior-level JPATS user steering committee to ensure
senior-level management involvement in all aspects of APSS
development. Senior managers from all JPATS user organizations
(i.e., USMS districts, INS, and BOP) should be included. We also
recommend that the CIO provide detailed monthly status reports to
all steering committee members.
Because coordination and involvement between developers and
users is critical to the success of the program, we further
recommend that the Assistant Director, PSD, select and appoint an
individual to serve as a liaison between PSD and the CIO. The
individual serving in this liaison position should be assigned to
work directly with the CIO and his staff to ensure that JPATS
user requirements are fully defined and communicated to the APSS
developers.
Computer Security
Requirements Not Adequately Defined
The USMS has not yet performed a systematic review of the
security requirements for the APSS. Well into the design phase,
we found that user (USMS, INS and BOP) security requirements had
not been fully explored nor documented. According to Department
Order 2830.1D, Automated Information Systems Policies:
The program director(s), whose information management
requirements provide the justification for creation and/or
continued operation of an automated information system, must
ensure that security requirements are satisfied during the
planning, development and operation of the system . . .
The project manager is responsible for defining security
specifications prior to initiating formal development of
sensitive application systems. He/she or a designated
security specialist, is also responsible for assuring that
appropriate technical, administrative, physical, and
personnel security requirements are included in procurement
specifications for the acquisition or operation of automated
information systems.
Given that this did not occur, we recommend the USMS begin a
formal review of JPATS security requirements. Specifically, steps
need to be taken to identify APSS security risks, and appropriate
security measures to address those risks. Specific security
safeguards and controls should at a minimum be designed and
implemented to prevent and detect unauthorized system access and
access to data, and misuse of the system by authorized users. In
addition, contingency planning is needed to ensure that
appropriate arrangements are made for systems redundancy and data
back-up and recovery.
JPATS Management Needs
Complete Cost Information to Support Decision Making
We also noted that while the APSS should, as designed, capture
operational information needed to make future management
decisions (e.g., about aircraft, routes, hubs, etc.), the current
system has not been designed to capture or integrate the wide
range of cost information available in a variety of forms and
locations that is needed to ensure that resources are allocated
and utilized efficiently. Specifically, the system is not
currently designed to capture all costs incurred by the
Department components involved in transporting prisoners and
aliens. As explained in a September 18, 1996 memorandum from the
CIO to members of the Marshal's Advisory Subcommittee on
Technology:
It is not easy to get an overall picture of JPATS costs
even within the USMS. Expenditures occur in the districts as
well as in Kansas City, Missouri; Oklahoma City, Oklahoma; El
Paso, Texas and Pineville, Louisiana. Some expenditures come
out of the Salaries and Expenses appropriation (0324) while
other expenses are paid from the Support of Prisoners
appropriation (1020). Only the marginal JPATS costs
associated with a particular trip number can be easily
identified. Basic costs of housing, meals, specific plane
maintenance and the ordinary time of USMS personnel and
guards are lost for all practical purposes due to
summarizations of costs by object class and cost center.
We therefore recommend that the Assistant Director, PSD, and
the CIO work together to identify and plan for the capture of
USMS, INS, BOP, and FBI prisoner and alien transportation cost
data needed to make the most cost-effective use of JPATS
resources.
NEXT STEPS: WORK PROCESS
REDESIGN AND INTEGRATION OF APSS WITH DEPARTMENT PRISONER AND
ALIEN TRACKING SYSTEMS
The APSS, when completed, should provide the much needed
automation of the transportation scheduling operation in Kansas
City. However, the approach being used in developing this system
is to automate the existing process used by coordinators in
Kansas City to schedule the movement of prisoners and aliens.
Work process redesign that will determine how coordinators should
best perform their tasks in an automated environment is not
contemplated at present. We believe work process redesign could
provide additional productivity improvements in the scheduling
process.
In addition, initial implementation of the APSS may not
include integration of existing USMS, INS, and BOP tracking
systems to make the scheduling process more efficient. The
current scheduling system requires some duplicative and wasteful
re-entry of information (i.e., re-entry of Form 106 information
for all INS movement requests) and will not provide all USMS
users, or any INS or BOP users, with the capability to directly
query the system to confirm flight manifests, prisoner schedules,
or completed prisoner movements.
To fully support the JPATS mission, we believe the APSS must
be integrated with existing USMS, INS, and BOP prisoner and alien
tracking systems. Each of these separate systems is undergoing
changes, but these changes have not as yet been effectively
coordinated so as to facilitate the fully electronic submission
of movement requests, or ad hoc user query capabilities. Until
these systems are integrated, JPATS will not operate as
efficiently or effectively as it could.
Recommendations
Automation is critical to the long-range success of JPATS
operations. Successful implementation of the APSS, and subsequent
JPATS automation efforts, will require the full cooperation and
efforts of the CIO and the Assistant Director, PSD. We therefore
recommend that the Director, United States Marshals Service,
direct:
1. the Assistant Director, PSD, to promptly convene a
senior-level JPATS user steering committee to ensure
senior-level management involvement in all aspects of APSS
development. Senior managers from all JPATS user
organizations (i.e., USMS districts, INS, and BOP) should be
included;
2. the CIO to provide detailed monthly status reports to
all steering committee members;
3. the Assistant Director, PSD, to select and appoint an
individual to serve as a liaison between PSD and the CIO. The
individual serving in this liaison position should be
assigned to work directly with the CIO and his staff to
ensure that JPATS user requirements are fully defined and
communicated to APSS developers;
4. the Assistant Director, PSD, and the CIO to identify
and plan for the capture of USMS, INS, BOP, and FBI prisoner
and alien transportation cost data needed to make the most
cost-effective use of JPATS resources; and
5. the CIO to arrange for a computer security risk
assessment for the APSS system to include the security
requirements of JPATS users and identify specific security
safeguards and controls needed to ensure the integrity of
JPATS operations.
#####